<html>
<title> - AFTER THE LONDON ATTACKS: WHAT LESSONS HAVE BEEN LEARNED TO SECURE U.S. TRANSIT SYSTEMS?</title>
<body><pre>[Senate Hearing 109-481]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-481 

AFTER THE LONDON ATTACKS: WHAT LESSONS HAVE BEEN LEARNED TO SECURE U.S. 
                            TRANSIT SYSTEMS?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 21, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs










                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

24-238                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001









        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
            Kathleen L. Kraninger, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                    Joshua A. Levy, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     2
    Senator Carper...............................................     4
    Senator Levin................................................     6
    Senator Lautenberg...........................................    14

                               WITNESSES
                     Wednesday, September 21, 2005

Edmund S. Hawley, Assistant Secretary of Homeland Security 
  Transportation Security Administration, U.S. Department of 
  Homeland Security..............................................     7
Michael Brown, Chief Operating Officer, London Underground.......    18
Polly L. Hanson, Chief, Metro Transit Police Department..........    22
Rafi Ron, President, New Age Security Solutions..................    26

                     Alphabetical List of Witnesses

Brown, Michael:
    Testimony....................................................    18
    Prepared statement with an attachment........................    58
Hanson, Chief Polly L.:
    Testimony....................................................    22
    Prepared statement...........................................    66
Hawley, Edmund S.:
    Testimony....................................................     7
    Prepared statement...........................................    37
    Post-hearing questions and responses.........................    47
Ron, Rafi:
    Testimony....................................................    26
    Prepared statement...........................................    76








 
                       AFTER THE LONDON ATTACKS:
                     WHAT LESSONS HAVE BEEN LEARNED
                    TO SECURE U.S. TRANSIT SYSTEMS?

                              ----------                              


                     WEDNESDAY, SEPTEMBER 21, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Lieberman, Levin, Carper, and 
Lautenberg.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Today 
this Committee will examine the security and preparedness of 
mass transit systems in the United States. I particularly 
appreciate the chief operating officer of the London 
Underground traveling across the Atlantic to be with us this 
morning. He will share the lessons learned from his experience 
in leading his agency's response to the terrible attacks in 
July in London.
    I would like to thank our distinguished Ranking Member, 
Senator Lieberman, for his initiative in recommending this 
hearing and our other expert witnesses for their appearance 
here today.
    I would also note that the American Public Transportation 
Association is hosting a meeting of security officials from a 
number of foreign transit agencies in Washington, and many of 
them have joined us at this hearing today. They represent a 
number of foreign countries, and we welcome them and look 
forward to hearing their views after the hearing.
    On the morning of July 7, terrorists exploded three bombs 
on underground trains in central London. A fourth bomb 
destroyed a double-decker bus. Fifty-two innocent people were 
murdered in those attacks. More than 700 were injured. Exactly 
2 weeks later, on July 21, another attack was launched during 
London's morning rush hour. Again, three trains and a bus were 
the targets. Fortunately, however, those bombs failed to 
detonate.
    The attacks on London's mass transit have been described as 
a wake-up call to those responsible for the safety and security 
of our own mass transit systems, and they are not the first. 
They echo the alarms set off by earlier attacks on mass transit 
in Madrid, Moscow, Tokyo, Tel Aviv, and other cities around the 
world. In fact, the National Counterterrorism Center database 
reveals that in 2004, there were more than 150 deadly terrorist 
attacks on mass transit worldwide.
    Now that we have heard the alarm bells, it is time to act. 
In the jargon of counterterrorism, we often speak of soft 
targets. Soft targets are those locations and facilities that 
attract large numbers of people and that, by their very nature, 
must be open to easy public access, such as schools, shopping 
malls, hotels, restaurants, and sports arenas. The American 
mass transit system is among the softest of targets. Every 
year, according to the American Public Transportation 
Association, Americans take more than 9.6 billion trips on 
public transportation. Every weekday, approximately 6,000 
public transit systems carry more than 14 million passengers. 
In less than a month's time, transit systems move more 
passengers than U.S. airlines transport in a year. Implementing 
security measures for these necessarily open systems is both a 
challenge and a responsibility borne by Federal, State, and 
local government officials, as well as private-sector owners 
and operators. Meeting this challenge requires a strategic 
vision and short- and long-term action plans developed among 
these parties, and it requires leadership from the Federal 
Government.
    I look forward to hearing today from the Department of 
Homeland Security regarding the Federal strategy for helping to 
secure our Nation's mass transit systems. I am, however, 
disappointed that that strategy was initially classified, 
making access to it extremely difficult. In particular, I also 
question whether the Department may be focused too narrowly on 
aviation security at the expense of other modes of 
transportation. While it is understandable that after the 
September 11 attacks air security would command our immediate 
focus, I believe that it is now time to reassess priorities and 
evaluate our preparedness across all modes of public 
transportation.
    The answer, of course, is not merely to invest more in mass 
transit security, but to invest it wisely, to adopt and expand 
strategies and tools that have proven successful elsewhere. 
From communications, surveillance equipment, sensors, and 
access control systems to planning, training, additional 
transit police, and increased public awareness, the techniques 
by which mass transit security can be improved are known and in 
use, as our witnesses will testify today. I welcome the 
testimony. We will hear how these techniques can be employed to 
harden a target that remains far too soft.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks, Madam Chairman. Thanks for your 
opening statement and thank you very much for convening this 
hearing. This Committee has been quite engaged as the oversight 
committee of FEMA and the Department of Homeland Security in 
the aftermath of Hurricane Katrina. In fact, tomorrow we are 
holding a markup--I believe the first by a Senate Committee--to 
bring out emergency response legislation; that is, legislation 
that will assist the victims and their communities in their 
response and recovery to Hurricane Katrina. So I appreciate 
your decision to go ahead with this hearing as scheduled, and I 
think it reflects our shared conclusion that our transit 
systems remain vulnerable to terrorist attack and that the 
terrorists who struck us on September 11 are not going to take 
a holiday or a grace period because we have been hit by 
Hurricane Katrina. They are out there, and we have to do 
everything we can, urgently, to increase our defense, our 
homeland defense of targets that are vulnerable and may be 
therefore attractive to terrorists.
    Many of us have been concerned, as your opening statement 
suggests, Madam Chairman, since September 11 with the lack of 
an adequate response to the defense of our mass transit 
systems. As you said, it was understandable post-September 11 
that we should focus first on aviation security, and quite 
appropriately so. But September 11 was a tragic wake-up call 
that should challenge us to better defend not just aviation, 
but other transit systems and other vulnerable parts of our 
society. The numbers here cry out, just as you said. The number 
I have--more than 14 million Americans ride our mass transit 
systems every day, as compared to 2 million people who fly on 
airplanes. That does not mean we should not do everything we 
can aggressively to protect the 2 million. It just means that 
we better not forget the 14 million, and the response--perhaps 
this is too simple, but it is one measure--is how much money we 
have spent since September 11 on aviation security on the one 
hand and mass transit security on the other. You will get some 
debate about these numbers depending on how you calculate them, 
but there seems to be agreement that we have spent at least $15 
billion on aviation security since September 11 and that we 
have spent only $300 million on mass transit security. That 
cannot go on. We are inviting trouble if it does go on.
    For about 3 years, some of us have been trying to get the 
Administration to issue a National Transit Security Plan. Last 
year, finally, in the intelligence reform legislation which 
came out of this Committee and was adopted in December, there 
was a legal requirement to do that. It was due on April 1. A 
lot of months went by, but finally, after April 1, the plan was 
issued. And, as Senator Collins has said, it was classified, 
preventing many of the stakeholders in our mass transit system, 
for whom the document was issued, from being able to use it. I 
am pleased that the Department, hopefully--at least in part in 
response to the request made by Senator Collins and me--has now 
agreed to permit the stakeholders to view the strategy, but we 
are still unable to discuss the content of the document here 
today without restriction.
    I do want to discuss--with Mr. Hawley, particularly--the 
Federal Government's vision for transit security and 
transportation security generally in a way that is constructive 
and meaningful without compromising any of the restrictions 
established by the Department. So I guess I would say right 
here at the outset to you, Mr. Hawley, and as far as it relates 
to any others, but it is really to you, that if at any point 
during the hearing in response to a question I or any of the 
rest of us ask, but I will say it about myself, you believe 
that a full answer would require you to discuss information 
that cannot be discussed publicly, then please indicate so and 
limit your answers to that which you can discuss publicly. I 
will say for my part I have reviewed the strategy, but I remain 
concerned that within it there is not an adequate sense of 
priorities. The vulnerabilities are listed in different areas 
of mass transit--but there is not a sense that I got of 
priorities about which of those vulnerabilities are most 
significant and, therefore, which we should focus most 
resources on most quickly.
    Second, I share with you a general reaction, and want to 
ask you about it, that the plan continues to reflect an 
encouraging, proactive, aggressive, creative, comprehensive, 
can-do, must-do attitude toward aviation security, but it does 
not do the same with regard to mass transit. We understand, as 
Senator Collins said, that a lot of forms of mass transit are 
more open systems, harder to protect, but that is not a reason 
not to do a lot of things that are not being done now to push, 
if I can use an old metaphor, the security envelope here--it is 
probably not the appropriate one--to make sure we are doing 
everything we can, even allowing for the openness of the 
systems.
    In that sense, our witnesses today, I think, can be 
extremely helpful, and I am very grateful that they are here. 
Chief Brown, Mr. Brown, comes with the experience, not just of 
the tragedy of the attacks in London in July, but of all that 
the London system does to deter such attacks, well beyond what 
is done in most of our transit systems today. Mr. Ron brings 
considerable experience from Israel, unfortunately having lived 
with the clear and constant danger of terrorist attack, in 
other methods that can be used to deter those attacks in open 
mass transit systems. I look forward to hearing from him. And 
then Chief Hanson, from the Metro Police Department, is in some 
sense the consumer and the front-line first preventer, not to 
mention first responder, in mass transit security. I want to 
ask her about how she thinks we in the Federal Government are 
doing in helping her do her job. Bottom-line, I have, and I 
know everybody on the Committee does, a real sense of urgency 
about doing a lot better than we have done in protecting the 
American people when they ride mass transit in this country, 
and I am confident that from this hearing will come some good 
ideas that we can use together to accomplish that very 
important national security goal.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you, Senator.
    I would now like to call upon a Committee member who takes 
mass transit every day and thus has a special interest in this 
topic and has had for some time.
    Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Madam Chair, and thanks very much 
to you and Senator Lieberman for holding this hearing. This is 
one that strikes close to home for all the members of the 
Delaware congressional delegation, Senator Biden, Congressman 
Castle, and myself, because we do commute on almost a daily 
basis to Washington along with hundreds or thousands of people 
who ride not just Amtrak, but the MARC systems, the SEPTA 
systems, and others up and down the northeast corridor, so we 
much appreciate your holding this hearing.
    I flew down to Charlotte, North Carolina, on Monday and was 
reminded again as I stood in line to go through security at 
Philadelphia International to take my shoes off and to go 
through the process that we have all become familiar with in 
the last couple of years, how much air travel has changed in 
the last 4 years. Those of us who work the kind of jobs we do, 
we do fly a whole lot. So we are especially mindful of that. I 
am sure a lot of folks in the audience are mindful of that, as 
well.
    I think most of us agree that American air travelers are 
traveling with greater security and that some of the 
inconvenience we put up with is worth it. I feel safer. I hope 
others feel safer, as well. I noted before--I think in this 
Committee--that the bombings that we witnessed in the past year 
or so in Madrid and in London should have in a lot of ways been 
the same kind of wake-up call for us that September 11 has been 
on the air side. We have taken some steps to secure rail and 
transit systems since those two attacks, but I am telling you I 
am still not convinced that we have done everything that we can 
and should be doing to prevent a Madrid-style or a London-style 
bombing from occurring here close to home on our own shores. I 
am not suggesting that we take what we are doing at our 
airports and set up similar security systems in trains or bus 
stations. I am not interested in rushing into the Wilmington 
train station, taking off my shoes, and standing in line to go 
through screening devices any more than the other hundreds of 
thousands of people who take transit every day, but I think 
there are some things we can do, and hopefully as we come 
through today's hearing we will identify some of them.
    I am pleased that we have finally given the Department of 
Homeland Security the money to distribute grants to rail and to 
transit systems to help them pay for some of the cost of 
additional security. It is my understanding that not very much 
of that money has been spent, and I am not sure why that is the 
case. We certainly hope to get some insights into that today. 
Since Amtrak and most transit agencies barely have enough money 
to operate from day to day, we probably ought to be putting up 
the money, and I am just curious as to why the money that we 
have appropriated has not gone out the door and actually been 
put to work. I am also pleased, though, that the Department of 
Homeland Security is spending money to train and deploy teams 
of rail inspectors and canine bomb-sniffing units.
    Whenever I talk to security folks within Amtrak, they 
always say one of the best buys that we can get for our money 
is dogs, just to have dogs that are trained with folks who know 
how to handle them to check for bombs aboard trains. I think we 
do need more information, however, about how these assets are 
going to be deployed and how they fit into a strategy to harden 
our defenses against an attack on our rail and our transit 
systems quickly before another attack forces us to take 
additional action.
    In closing, Madam Chairman and colleagues, I will just say 
that this is, I think, a very timely hearing and a topic that 
is worthy of our attention and has been for some time. There 
has been a lot of talk since the London bombings about whose 
job it is to do the brunt of the work to protect our Nation's 
rail and transit infrastructure--the operators in the private 
sector, State and local level, or the Federal Government? I 
agree with those who say that rail and transit security should 
be a shared responsibility, but if, God forbid, there were an 
attack on an American subway system like the one that occurred 
in London, our constituents would demand that the Federal 
Government act decisively, and I hope that this hearing helps 
us flesh out at least a little bit more what the Federal role 
in transit security and rail security should be and speeds up 
our efforts to fulfill that role.
    Thank you.
    Chairman Collins. Thank you.
    Senator Levin, we welcome you, as well.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman, to you and 
Senator Lieberman as always for taking a leadership role in a 
very critical area. One of the issues that I am particularly 
interested in in the area of transit security, but frankly all 
security, is the development of technology that is capable of 
detecting explosives at a distance. If we can develop that 
technology so that we can identify explosives at a distance, we 
are going to be able to dramatically enhance our security 
everywhere. The technology does not yet exist, as far as I 
know, and yet we have--as Senator Carper mentioned--dogs that 
sniff explosive material. Explosive residues can be detected on 
people and on clothing, and we should be able, if there are 
enough resources invested, to develop a technology which can 
spot explosive devices at some distance, and that would be a 
huge breakthrough in the fight against terrorism. So I know 
that the Department of Homeland Security is developing and 
coordinating an effort to detect the presence of explosives at 
a distance. I emphasize at a distance. We already can detect 
them at a few inches or feet. We need to be able to detect them 
at many yards away.
    We could have protected ourselves and other countries could 
have protected themselves against many of these explosions had 
we had this capability. I believe we put some additional funds 
in the budget this year to do that. I think we have gone from 
$22 million to $136 million for the High Explosives 
Countermeasures Office, but I would like to hear from Mr. 
Hawley and also our other witnesses if they have information on 
this subject as to what is the status of the efforts to 
research and develop a detection capability for high explosives 
at some distance.
    I regret that I am going to have to leave, so I will not 
hear their answers, but my staff will tell me whether or not 
either or any of these witnesses have been able to shed some 
light on this question as to where are the investments being 
made; what is the time line; do we have any hoped-for 
breakthroughs that are on the horizon? If so, with luck, can we 
be deploying these kind of detection devices or a detection 
device within a matter of a year or two, or is it longer range 
than that? How many companies do we think and how many 
institutions--academic institutions, commercial companies--are 
involved? Is it a matter of a few or is it a matter of dozens 
or is a matter of hundreds looking for this capability? And 
from our witnesses from England, if they could also bring us up 
to date as to what England is doing in this area, as well, it 
would be helpful to me. Again, I only regret that I cannot stay 
to hear the answers, but it is a very important question I hope 
our witnesses might address.
    Chairman Collins. Thank you, Senator.
    I am pleased to welcome our first witness this morning, 
Edmund Hawley, the Assistant Secretary of Homeland Security for 
the Transportation Security Administration. This is the 
position for which the Committee confirmed him this past July. 
We are very pleased to welcome you back, and we look forward to 
hearing your testimony. Please proceed.

   TESTIMONY OF EDMUND S. HAWLEY,\1\ ASSISTANT SECRETARY OF 
HOMELAND SECURITY, TRANSPORTATION SECURITY ADMINISTRATION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Hawley. Thank you. Good morning, Madam Chairman, 
Ranking Member Lieberman, and Members of the Committee. I 
appreciate the opportunity on behalf of the Transportation 
Security Administration (TSA) to discuss our efforts in 
partnership with others in the Federal, State, and local 
governments, as well as the private sector, to provide 
essential security in public transportation. As has already 
been noted, 2\1/2\ months ago, Londoners endured the ordeal of 
four nearly simultaneous suicide bombing attacks in the 
Underground system and a double-decker bus. Just 2 weeks later, 
another four attacks in the Underground were attempted.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hawley appears in the Appendix on 
page 37.
---------------------------------------------------------------------------
    This has been an opportunity for us to assess and enhance 
the level of security on our public transportation systems. Our 
review of that effort has provided valuable information on our 
security posture and insight into areas where improvements are 
needed. These learnings from London and insights from Secretary 
Chertoff's second-stage review form the basis of my testimony 
today. Earlier this month, the Department delivered to Congress 
the national strategy for transportation security that you have 
mentioned. This was prepared in cooperation with the Department 
of Transportation and outlines the Federal Government's 
approach in partnership with State, local and tribal 
governments and private industry to secure the U.S. 
transportation system from terrorist attacks and also to 
prepare the Nation by increasing our capacity to respond if an 
attack occurs. It describes how the Federal Government will 
manage transportation risks and discusses how the government 
will organize its resources to secure the transportation 
system.
    To implement the strategy, it is clear that we must enhance 
our coordination of security initiatives and our communication 
among the Federal, State, and local governments and industry 
stakeholders. Two significant developments in this area have 
already occurred. On September 8, TSA, FTA, and DHS's Office of 
State and Local Government Coordination and Preparedness 
(SLGCP) completed the public transportation annex to the 
Memorandum of Understanding (MOU) between DHS and DOT. This 
agreement defines the roles and responsibilities of the Federal 
Government parties in public transportation security. 
Additionally, earlier this month, as a direct result from our 
learnings from London, TSA initiated a pilot program with 
participants from DHS, DOT, and FTA to re-think the way in 
which we communicate with stakeholders on passenger rail and 
rail transit security issues. The objective of this program is 
for the Federal partners in passenger rail and rail transit 
security to coordinate ahead of time and speak with one voice 
to our stakeholders. This program will bolster passenger rail 
and rail transit security and provide the foundation for 
similar initiatives in other transportation modes.
    We are also bringing improvements to explosive detection 
procedures. We are increasing our canine explosives detection 
capability and have taken steps to expand the deployment of 
teams to some of the largest mass transit systems. That effort 
is now under way. TSA's surface transportation inspection force 
is nearly fully fielded. Inspectors are already deployed and 
working to develop close liaison with mass transit and 
passenger rail operators. The inspectors provided timely 
services in the aftermath of the attacks on London, deploying 
to rail and mass transit operation centers throughout the 
Nation. The lessons learned and relationships developed will 
further enhance our security posture, as will the security 
system evaluations in mass transit systems. These initiatives 
are being integrated into the broader context of overall DHS 
initiatives and Secretary Chertoff's strategy for the 
Department. These include real stakeholder engagement, 
networked information, development and leveraging of 
technology, a risk-based approach to the deployment of Federal 
resources, and the DHS program for grants to foster innovation 
at the State and local level and in the private sector. We will 
continuously strengthen our base of security programs in a 
manner that ensures freedom of movement for people and 
commerce.
    A common theme in this discussion is our effectiveness and 
security depends on the close working relationships among the 
parties. I would like to publicly express my gratitude to 
Transportation Secretary Norman Mineta for his support of this 
mission by letting us take a key member of his team, Deputy 
Transit Administrator Robert Jamison, who will join us at TSA 
as deputy administrator. He brings a wealth of experience in 
the public transportation environment and is acting 
administrator of the Federal Rail Administration.
    Thank you for the opportunity to appear this morning. I 
look forward to working with Congress on these topics and would 
be happy to answer any questions.
    Chairman Collins. Thank you for your statement. I want to 
begin my questioning today by exploring an issue that Senator 
Lieberman raised in his opening statement about the disparity 
in funding for aviation security versus other modes of 
transportation. My statistics are a little bit different from 
those of Senator Lieberman, but the point is exactly the same. 
Since September 11, 2001, the Department of Homeland Security 
has allocated over $18 billion in funding for aviation security 
and only $250 million for transit security grants. Now, I 
recognize that the funding for transit security grants does not 
represent all spending that benefits transit security, but it 
is the largest allocation of dedicated funding, and by any 
measure there is a huge disparity. At this stage and in light 
of the attacks on mass transit systems in other countries, 
should we be reallocating resources to beef up other modes of 
transportation?
    Mr. Hawley. The risk-based approach looks at the total 
transportation network, and clearly the Federal dollars that 
are spent in the aviation sector are very much larger than 
those spent in others. However, that does not reflect the 
relative importance of either the modes or the security 
available to them, and that it is a very high priority 
certainly in the Department and TSA to be involved in transit 
security. The numbers--there are a lot of different numbers, 
but I think your point is valid, whatever the specific numbers. 
But the way we look at the terrorist situation today is more on 
a person-based as opposed to a thing-based, which is to say 
that it is not, in our opinion, the right way to structure the 
security regime to look at specific attack points and develop 
solutions for every one of those individually, but rather to 
look at the whole system and say it is the people who are 
delivering these attacks, and things that we do in terms of 
border security, connecting the dots, so to speak, between ICE 
and Customs and border protection and TSA and FBI, and that the 
focus of finding the terrorists themselves who may decide to do 
a transit attack or an aviation attack or any of the other 
modes, that the focus is to stop the terrorist attack wherever 
it is, and certainly there are prudent things to do at the 
point of attack across the board, but there is also the other 
effort that does not lend itself to modal differentiation.
    Chairman Collins. I think that is something that the 
Department really needs to take a look at. The GAO has been 
critical of the Department, as you know, for not concluding a 
risk assessment of the Nation's passenger rail system. And, 
there continues to be criticism of whether or not we are really 
prepared in this area. I also think we can learn a lot from the 
experience of other countries. In Michael Brown's testimony, he 
notes the value of the closed-circuit television surveillance 
units that are widely deployed throughout the London 
Underground system, and it was those television images that 
enabled a swift, successful law enforcement investigation 
following the July attacks. What is the status in the United 
States of efforts to install similar surveillance and 
communication systems within our mass transit systems?
    Mr. Hawley. The camera systems and the communication 
systems are among the best security measures that the transit 
systems can do, and, of course, each system has its own 
particular characteristics and its own particular progress. The 
point that I always come to on that is that the capital expense 
of getting the camera installed is perhaps the easiest part, 
and then comes the part of, OK, how are we actually going to 
use them? Who is going to be watching the feeds? How are we 
going to analyze them, and what do we do when we see something 
that we are concerned about? From my point of view, as these 
issues are resolved on the capital dollars to put in these very 
excellent systems, that there needs to be a commensurate 
activity that integrates those new systems into the real world 
security process of an individual transit system or even 
transit station. So it is something that we feel is very 
important and a role that we can play that is helpful and 
directly applicable to increased security, but does not have a 
huge dollar cost associated with it. It is how to leverage 
those capital investments to get the best operating security.
    Chairman Collins. Are other countries ahead of us in this 
regard? It certainly seems that way, just watching the images 
on television versus our personal observations here in the 
United States.
    Mr. Hawley. Well, certainly the London Underground is among 
the best, if not the best in the world, in terms of the 
deployment of an integrated security system, and it is a 
cautionary tale that even with that level, that these attacks 
occurred, and also of concern is the fact that a short time 
later essentially the same method was used by similar attack 
methodology. So no system is invulnerable, no matter what the 
investment is. You just cannot take risk away, but you can do 
the prudent thing, and I think the systems that we have 
deployed in the United States and the operating procedures that 
go with them are as good as anywhere in the world, and I think 
the proof point of that was on July 7, when all of the transit 
systems in the United States came up on their own to a very 
high, very effective level of security, and all that work of 
preparation and vulnerability assessments and all of those 
things that have been going on for 3 years came up in an 
instant and was very effective. So I think the security for 
transit systems in the United States is outstanding.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thank you, Madam Chairman. Thanks, Mr. 
Hawley, for your testimony. Incidentally, Senator Collins 
raised questions about the allocation of appropriations for 
mass transit. In fact, in the initial budget proposal by the 
Administration there actually was a cut from previous levels in 
mass transit funding, and Senator Collins and I have asked our 
colleagues on the Homeland Security Appropriations Subcommittee 
to at least appropriate for mass transit to the level of last 
year. I hope that you will support us on that. I hope in some 
sense that this hearing may encourage our colleagues to sustain 
the current level of funding and hopefully to go higher.
    I want to ask you a few questions about the national 
strategy, and I want to do so mindful of what I said in my 
opening remarks, that I expect that you will respect the 
limitations or I will respect the limitations of what you can 
say and cannot say publicly at this hearing. The strategy has 
been in the works for a long time, long before you became the 
Assistant Secretary for Transportation Security, and a lot has 
happened since it began. There is always a lag time in these 
kinds of things. I want to ask you this question, which is 
whether you would say that the National Strategy for 
Transportation Security, as it was released more than a week 
ago, reflects the Administration's current thinking on 
transportation security strategy?
    Mr. Hawley. Yes, it does. It is a very good baseline on 
which to build. As you get into it, there is tremendous depth 
to the information that is there that lays out a very 
comprehensive look at the total transportation system, and the 
key point being that in the resource-constrained world, risk-
based priorities are the way to go, and that really is at the 
heart of Secretary Chertoff's strategy for the Department and 
certainly ours at TSA, and it lays out a lot of the current 
processes that have been built up of solving the problem of how 
do we have an effective level of security across systems that 
operate geographically dispersed and are all interconnected? 
How do we connect those with so many different players having 
responsibility for different pieces?
    Senator Lieberman. Let me ask you then to respond in 
general terms, or however specific you think you can, to my 
general reaction after having reviewed the strategy, which is 
that within the itemization in different forms of 
transportation, of vulnerabilities, there did not seem to be a 
sense of priorities among those. That is the first one. The 
second is my own feeling, somewhat explicit, maybe implicit, 
that the approach to the non-aviation transportation sectors 
remained much less aggressive, can-do, must-do, even if it is 
hard, than the strategy for the aviation sector.
    Mr. Hawley. I can tell you on the transit sector that the 
first London bombings occurred on a Thursday, and Secretary 
Chertoff had a number of us in on Saturday with, ``OK, what are 
we doing right now to do what we can to have the level of 
security effectively increased?''
    Senator Lieberman. Long-term, not just----
    Mr. Hawley. Long-term, I think the strategy gets--it goes 
back to the point of looking for the terrorists before the 
attack is launched, and if the predominance of our defenses are 
only to protect the final end point of the attack, that is not 
a very good system, and so it is the multiple layers that go to 
stop an attack before the decision is made by the attackers as 
to which mode.
    Senator Lieberman. That is exactly the point I was trying 
to make, which is--and I agree with this in part--that if 
somebody is going to come at a transit system or any other 
locale in our country, as unfortunately our friends from Great 
Britain and Israel know, strapped with bombs around their 
waist, once they get to that point it is hard to stop them, not 
impossible, as we have seen, but hard. Obviously, the best 
thing you can do is to have intelligence to stop them before 
they strike, but I do not want us to allow that reality to be a 
reason not to do everything we can to protect and defend the 
final targets, as the British and the Israelis do more than we 
do, I believe.
    Mr. Hawley. Yes. I think that is an excellent point, and 
the things that we can do long-term in terms of technology 
development and things that tend to be capital costs are not 
immediately available to us, but a lot of the things--the See 
Something, Say Something campaign that enlists the public to be 
alert, training of the employees of the transit operators, 
behavioral observation techniques.
    Senator Lieberman. That's exactly the kind of stuff I am 
talking about. We are going to hear more about that on the 
second panel. Can I ask you one final question? After the 
threat level was raised to orange after the London attacks, 
local transit systems around the country raised their defense 
levels, and it put a lot of strain on them in terms of 
finances. There's an article I have seen from the Atlanta 
Journal-Constitution that reports that raising the threat level 
to orange this summer cost the Atlanta transit system about 
$10,000 a day beyond its regular operating budget, which 
exhausted a quarter of its overtime budget within the first 
month of the system's fiscal year and pushed the security 
personnel to work 12-hour shifts even though they had the 
assistance of local police.
    In Connecticut, I can tell you that after the threat level 
was lowered back to yellow, the Governor announced that State 
Police officers and National Guard troops would no longer be 
deployed on the Metro-North trains or at the State bus and 
train stations. So in some sense the threat level was reduced, 
as I understood the Secretary's decision, because local 
protection had gone up, but when the threat level was reduced 
nationally, the local protection left because of financial 
reasons. So I wanted to ask you whether the financial strain 
placed on transit systems by the lack of resources for transit 
security in any way influenced the Department's decision to 
lower the threat level for mass transit this past August?
    Mr. Hawley. The funding source comes from the Urban Area 
Security Initiative, which has, I think, since September 11, 
$8.6 billion put into it, and from that pool local communities 
are able to draw down sources--money from that, particularly to 
offset overtime, etc.--and I think the issue on when it was 
time to come down to yellow from orange was based in large part 
on a sense that we could not keep a high level of alertness at 
every player across the system indefinitely, and that by the 
random application----
    Senator Lieberman. Because of financial stress?
    Mr. Hawley. Well, no, just the alert readiness. For 
instance, it was in the summer, and I saw guys who were in 
their Kevlar and their helmets, and the approach that seemed 
persuasive to us is that the random application of parts of 
orange that would not incur the cost of total orange 
everywhere, but that random increased patrol here, random dog 
team there, random different pieces that you did not have to 
sustain across the entire activity would give a higher 
delivered level of security than existed at yellow without 
incurring the cost that you had to have at orange.
    Senator Lieberman. I thank you. My time is up. Obviously, I 
hope you will think about this irony when you lower the threat 
level, then the locals got rid of the financial stress. I am 
going to want to ask the Metro police chief, from her 
perspective, about that whole experience. Thanks very much, Mr. 
Hawley.
    Mr. Hawley. Thank you.
    Chairman Collins. Thank you. Senator Carper.
    Senator Carper. Thanks, Madam Chairman.
    Again, Mr. Secretary, welcome. In the airline industry, 
many technologies have been developed in the military and later 
made commercially available. Rail and transit systems, however, 
really do not have the same kind of research and development 
pipeline to draw from, at least not to my knowledge. How is the 
Transportation Security Administration working with other 
agencies in this country or even outside this country to create 
a similar pipeline for the detection of explosive, 
radiological, chemical, biological devices that might be 
deployed against our transit rail systems? How are you working 
with industry to make such technologies commercially available?
    Mr. Hawley. On the longer-term improvements in technology, 
the science and technology group at DHS specifically looks into 
the science piece to see promising areas. For instance, Senator 
Levin was talking about standoff detection of suicide bombers. 
What kind of science could apply to that mission? And so for 
the longer-term, looking at different, newer technologies and 
then turning those into products or providing seed money so 
that people can create pilots is very much the job of S&T. 
Within TSA, we have had a very effective explosives lab that is 
based in Atlantic City, and they spend a lot of time trying to 
figure out how a particular technology that works in one area 
could be applied to finding explosives in another. So there is 
a lot done there, a lot of connection with other parts of the 
government in other countries. It tends to be a 2-year lag, my 
guess, before we are going to see that effectively applied.
    Senator Carper. All right. I understand from some 
discussions we had with folks who run rail and transit 
operations that they are approached--not besieged, but 
approached--by vendors frequently who are selling technologies 
that might help those rail and transit operators to better 
secure their systems. It is oftentimes difficult for the rail 
and transit operators to know a good investment from a bad one, 
as I am sure you can understand. Let me just give you an 
example: In the area of air quality, EPA has worked with 
transit agencies and bus manufacturers to set a standard, for 
example, for low-emission diesel engines that are commercially 
available. I just wonder how is the Transportation Security 
Administration doing this kind of thing with security 
technology? How does TSA determine what technologies are most 
effective, as well as how those products are most effectively 
utilized, and how do you get that information to the transit 
agencies to make sure that they know better how to spend their 
limited security funds?
    Mr. Hawley. Senator, I have heard the same comment from 
lots of people in the transit industry, and the Department, 
through the State and Local Government Office at the 
Department--they are the funding source; they are the people 
that provide the grants--have a kind of Consumer Reports type 
function that they have where individual technologies are 
tested and evaluated, and so it is trying to draw the line 
between saying, ``Here is our cookbook, the vendors you should 
be purchasing equipment from.'' We do not want to get into 
making those choices, but we want to say, ``Here, these are the 
technologies that are used in this way and they meet a common 
standard across the board,'' so to give the individual transit 
systems the ability to fine-tune, but also to take the cost of 
evaluating all those vendors off their backs and let them focus 
on their own operations.
    Senator Carper. I think you discussed in your testimony the 
importance of better utilizing canines to detect explosives. To 
date, TSA has augmented local law-enforcement canine capacity 
at events like the Democratic National Convention, Republican 
National Convention, and so forth. Do you have any idea how 
many canines TSA recommends that transit securities maintain? 
Is there some rule of thumb that is used in helping them 
determine that? Do you have any idea how many additional 
canines are needed for higher-level threat areas and how they 
have been deployed and prepositioned, and finally what is the 
cost of providing this level of canine presence and who should 
bear that cost?
    Mr. Hawley. The canine opportunity, we have talked about 
using technology that will join us in a couple of years, but 
that is a tremendous resource and a very flexible resource, and 
at TSA we have been on a pretty rapid incline where we expect 
to finish the year at around 470 dog teams.
    Senator Carper. Any idea what that number might have been a 
couple years ago?
    Mr. Hawley. I know last year it was in the 300s, and I 
don't know really beyond that, but I do know that since the 
July bombings, we have made 30 dog teams available to 10 large 
cities, that they will have those dogs by the end of the year. 
And now, as to the model of how the costs work with dogs, the 
way TSA does it today is that we have them trained at Lackland 
Air Force Base, a center of excellence for us for explosives 
detection, and we pay the operating costs or we reimburse local 
law enforcement who actually maintain the dog, and then a 
certain percentage of recipient of that we allocate. For 
instance, after July 7, we made available a certain number of 
our airport dog teams for transit operations, and I would say, 
going further, Senator, speaking specifically of Amtrak, that 
it is something we are looking at as to how to use any dog team 
that we have access to, on a random basis, apply it to, for 
instance, Amtrak or transit systems as requested by them.
    Senator Carper. One last one: You discussed, I think in 
your testimony, the transit rail inspection pilot program that 
tested the feasibility of screening passengers, screening their 
luggage, screening cargo for explosives in transit and rail 
systems. I think you said this sort of technology might be best 
used when threats are made against a particular station or 
site. My question is how will the personnel and technology be 
deployed when such a threat is identified? Will it be available 
in every transit system or are you going to have it 
prepositioned throughout the country and redeployed when a 
threat is identified, and how also would this be paid for?
    Mr. Hawley. Yes, the technology works. It is large and 
expensive and not terribly mobile. Dogs, on the other hand, are 
available, are mobile, and can be very effectively applied. So 
my solution is that we keep looking at the technology, keep 
trying to get the costs down and the flexibility up, but that 
we have tremendous resources in the canine arena that we are 
using today and will continue to use as a very effective, 
mobile, flexible, not terribly expensive force.
    Senator Carper. Madam Chairman, rural southern Delaware has 
a saying that maybe they have in rural northern Maine about 
this dog won't hunt, but when it comes to effectively ferreting 
out explosive threats and that sort of thing on trains and 
transit, these dogs do hunt, and they do a real good job.
    Chairman Collins. Thank you. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thank you, Madam Chairman. I am sorry 
that I missed an opportunity to make an opening statement, but 
I would ask that my full statement be included in the record.
    Chairman Collins. Without objection.
    [The prepared statement of Senator Lautenberg follows:]
                PREPARED STATEMENT OF SENATOR LAUTENBERG
    Mr. Chairman, the natural disaster of Hurricane Katrina was 
compounded by a disastrous response. There was plenty of warning that a 
major hurricane could cause widespread flooding in New Orleans. And the 
warnings came true.
    We ignore warnings at our peril . . . but we continue to do so. 
This month marks 4 years since September 11 . . . and 2 months since 
the London subway attacks. We know that our transportation system is a 
potential target of terrorists.
    Public surface transportation carries 16 times more passengers than 
airlines--but we focus almost all our security resources on aviation. 
In 2002, the FBI warned that Al Qaeda may directly target U.S. trains, 
rail bridges, and tracks. But despite the warnings, we still don't have 
a plan to protect our nation's railways.
    Since September 11, President Bush has not asked for one dime 
specifically to secure our rail transit systems. Not one dime. Rather, 
he asks for a broad Homeland Security fund for the Administration to 
pick and choose which industries they want to secure and which ones are 
left to fend for themselves. This is unacceptable. so each year 
Congress has to designate specific funds for rail transit security 
needs.
    The 9/11 Commission reported in detail how unprepared we were at 
that time for an attack on our transportation system. Unfortunately, we 
are still not prepared.
    I'm not suggesting airline-style baggage screening, but there are 
things we can be doing to protect passengers and employees of transit 
systems that won't inhibit travel. Just like we passed legislation in 
the aviation sector, this Administration needs specific legislation on 
rail transit security or it simply won't get the job done.
    So while we hold this hearing to discuss ``Lessons from London,'' I 
hope we understand that the warnings have been present long before July 
2005.

    Senator Lautenberg. As a prelude, very shortly, the natural 
disaster of Katrina was compounded by subsequent disastrous 
response, and there was plenty of warning that a major 
hurricane would cause widespread devastation in New Orleans and 
the surroundings, and the warnings came true, and we ignore 
these warnings at our peril, but unfortunately we continue to 
do so.
    This month marks 4 years since September 11, 2 months since 
the London subway attacks, and we know that our transportation 
system is a potential target for terrorists. Public surface 
transportation carries 16 times more passengers than airlines, 
but we focus almost all of our security resources on aviation. 
In 2002, the FBI warned that Al Qaeda may directly target U.S. 
trains, rails, rail bridges, and tracks, and despite those 
warnings we still do not have a satisfactory plan in place to 
protect our Nation's railroads. The President, in his budget 
requests, does not dedicate a particular portion of the funds 
provided for transit security. Rather, our security is picked 
out of a group--I say our transit security--out of a broad 
homeland security fund for the Administration to pick and 
choose which industries they want to secure and which ones are 
left to fend for themselves, and I am hoping that this hearing, 
Madam Chairman, is really timely and very important to bring 
attention to this exposure that we have.
    The funniest thing is when we look at potential attacks or 
some major incident happening in the rail system, for years we 
have looked at the transit agencies as having to deal with 
their own crime on their systems. Terrorist attacks are 
directed at our society as a whole and our American way of 
life, and I can think of no greater responsibility for the 
Federal Government than to protect us in this way. Instead, we 
have been kind of left to deal with it as part of the total 
security issue, and it is really not appropriate. I point out 
that the per-passenger cost for security and aviation is $9.60 
per person. The London Underground that we are going to hear 
more about was over $2 dollars U.S. per passenger. U.S. 
transit, where we carry 9 billion trips annually, less than a 
penny per passenger, and it is really imbalanced, as everyone 
knows, when we saw the terrible tragedy that hit London and 
Japan in the transit systems, crippling the functioning of that 
society substantially for a long time, creating terrible 
problems. So, given your experience, Mr. Hawley, starting in 
your position soon after the London bombings, have you seen any 
sign that the Administration is going to request specific funds 
in fiscal year 2007 for rail transit?
    Mr. Hawley. On the issue of specific funds for transit, the 
Administration believes--and I believe--that the nature of the 
overlapping jurisdictions and operations in a region such as 
the National Capital Region or many others, that with so many 
players involved, that there needs to be some kind of an 
overview for the area. What is our strategy that is appropriate 
for this area? And that is why, on the targeted infrastructure 
protection grants, the Administration proposal for 2006 was up 
from $300 million to $600 million. So there is a significant 
amount of money applied to this area, and I suspect that we may 
disagree on whether it should be targeted directly to a 
specific mode or made available for them to discuss and 
distribute as they decide.
    Senator Lautenberg. Well, a common theme in the development 
of our intelligence system--the reform of our intelligence 
system and with the Department of Homeland Security--was 
focused on the debate as to whether or not the funds should be 
applied on a risk-based formula. Well, how can we then, Mr. 
Hawley, in fairness say, ``OK, Washington Metro, here is a 
bunch of money. It is important. Divide it up in ways that you 
think are most susceptible or most risky''? And to me that does 
not answer the problem, very frankly, because I assure you 
there are places in this city that get special funding even 
though they are perhaps the best protected facilities that we 
have in the country, but to ignore the damage--I mean, one need 
only--unless you get a chance to come by helicopter from home--
if one gets in the car and drives across one of the bridges and 
so forth, sees what kind of damage could result from an attack 
on the Metro. I mean, this place would be in total chaos. So 
how do we assure that the facility that carries most of the 
people in the city and its environs is protected sufficiently?
    Mr. Hawley. Well, clearly the priority for me and TSA and 
DHS of protecting and being involved in excellent security in 
the transit sector is very high on all of our radar screens, 
and the issue of local decisionmaking--one of the 9/11 
Commission report recommendations that we take very seriously 
is the connect-the-dots, and trying to get intelligence from 
the classified world directly to the operator in a way that 
they can use it, either by lowering the classification or 
finding a way to get it unclassified, is an operating way and 
an imperative that I have of get whatever intelligence that we 
have, whatever analysis, and network it widely within the 
industry as best you can from a security point of view, but 
always relating it to anything that would be tactically of 
interest and supported completely.
    Senator Lautenberg. Does the subject of Amtrak ever come 
up, to your knowledge, under the rail security requirements? I 
have not seen it mentioned at all in any of the papers that I 
have seen. Is there anything there?
    Mr. Hawley. Yes, sir, it is very much a part of it, and as 
we look at the overall application of our resources and trying 
to figure what can we use in a flexible way so that we do not 
focus all our attention on one particular aspect or one 
particular problem, we do want to have flexibility so we can 
apply random appearances and random security for Amtrak, 
transit, and all of our responsibilities. So I understand the 
issue about the funding of aviation versus that of transit, but 
I can assure you that at TSA and DHS the whole issue of transit 
security is one that we take very seriously. I spend a great 
deal of my personal time on it, and we were able to get the 
deputy transit administrator to come in as deputy at TSA. So we 
have a very high level, very deep operating experience at TSA, 
and it is a priority.
    Senator Lautenberg. I am sure you have seen or heard the 
expression that came out of a major movie, and that was, ``Show 
me the money,'' and if we do not see the money we do not know 
how serious the thinking is.
    Thanks very much for your testimony. Thank you, Madam 
Chairman.
    Chairman Collins. Thank you, Senator.
    Mr. Hawley, before I let you go and we move on to the next 
panel this morning, I have to tell you that I keep thinking 
about your response to my last question. You said that, in your 
judgment, the security of mass transit systems in the United 
States is ``outstanding.'' I must say I don't know how you 
could make that judgment when TSA has not finished risk 
assessments of U.S. systems, and I will ask you to respond 
either now or for the record.
    Senator Lieberman. Madam Chairman, let me just say that I 
totally agree with you, and everything we know continues to 
worry me, that our mass transit systems are more vulnerable 
than they should be today and that we have an urgent 
responsibility through strategy and through adequate funding to 
close those vulnerabilities to the best of our ability.
    Chairman Collins. Thank you.
    Mr. Hawley. Sure. My basis for saying that was on July 7, 
the work that had been done over the prior 3 years of actually 
having written programs and very specific action plans for all 
of the top transit systems--I saw the top 100--and it was 
filled out with scorecards of how far they were on a whole 
variety of individual metrics, and it frankly was a surprise to 
me to see how ready the American transit system really is, and 
I make this point not about funding or anything else, but just 
to say that the work that has been done, consistently done over 
a 3-year period, has led to a measurable result.
    Chairman Collins. I think there is a lot of good work going 
on at the local, State, regional, and Federal level, and by 
private operators, but I think we have a long way to go, and I 
will look forward to discussing this further with the next 
panel. I think until TSA has completed its assessments, it 
really does not have a complete picture of the state of 
security for mass transit.
    Thank you for your testimony.
    Mr. Hawley. Thank you.
    Chairman Collins. I would now like to call forward the 
witnesses for our second panel. Our first witness, Michael 
Brown, is the chief operating officer of the London 
Underground. Mr. Brown has been with the London Underground for 
16 years, serving in a variety of operations positions. In his 
current position, Mr. Brown is responsible for managing the 
Underground's operations and security, including emergency 
planning and response, technology deployment, and personnel.
    Our second witness, Polly Hanson, is the chief of the 
Washington Metro Transit Police. Her experience in law 
enforcement brings extensive knowledge to this Committee. In 
the year 2002, after 21 years with the Transit Police, Ms. 
Hanson was sworn in as the chief.
    Our final witness, Rafi Ron, is the president of New Age 
Technology Solutions, a transportation security consulting 
firm. Mr. Ron was instrumental in developing and implementing 
new security policies at Logan Airport. His prior experience 
includes serving as the director of security at the Tel Aviv 
Airport in Israel and 30 years in counterterrorism and 
intelligence services of the Israeli government.
    I feel very fortunate that we have such a prestigious 
international panel giving us a variety of perspectives here 
this morning. I thank you for being with us.
    Mr. Brown, we will start with you.

TESTIMONY OF MICHAEL BROWN,\1\ CHIEF OPERATING OFFICER, LONDON 
                          UNDERGROUND

    Mr. Brown. Madam Chairman, thank you for your words of 
welcome, and thank you, Senator Lieberman, and other Members, 
as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Brown with an attachment appears 
in the Appendix on page 58.
---------------------------------------------------------------------------
    It is a great privilege to appear before you this morning. 
The London Underground is the world's oldest underground 
railway network. It first opened in 1863. There are 253 miles 
of routes, 45 percent of the network is in a tunnel system. 
There are 273 stations on the system served by underground 
trains, and of these, 255 are operated by London Underground. 
London Underground provides a public transport railway service 
to London. It is part of Transport for London, which is a 
public transport authority under the direct control of the 
elected mayor of London.
    Approximately 3 million passenger journeys are undertaken 
each day on the Underground network, which is roughly the same 
number as the whole of the rest of the rail network across the 
United Kingdom. What I want to do briefly is talk about the 
security situation before July 7 and then go on to say some of 
the things that we have done since July 7. We have already 
heard some commentary about the CCTV systems in the London 
Underground. At present, the Underground has over 6,000 cameras 
on nearly all stations and in some of our trains. Within 5 
years, that number of cameras will double to 12,000. There are 
five stations on the network which do not yet have CCTV 
coverage, but they will have it by June of next year, and that 
program has been brought forward since the events of July 7.
    For all new CCTV systems, every camera will be recorded. 
Work is also in place to monitor areas that are not effectively 
monitored at the moment, such as ventilation shafts, more 
monitoring of car parks and other potential entry points to the 
network; 6.3 million pounds is being spent on such investment.
    At present, policing of the Underground is carried out by 
over 600 police officers. As of July 8, I ordered an additional 
100 police officers, so there will be 750 police officers 
specifically dedicated to policing the Underground system 
within a year; 6,000 front-line station staff are deployed 
across the Tube stations. These staff work either on platform, 
ticket barriers in local station control rooms, or in control 
across one or more stations.
    All trains have a driver in their cab who is in contact by 
radio with a line control center. There are seven such rooms 
across the network. In terms of context, the majority of the 
attacks before July 7 were carried out by Irish Republican 
terrorists who had been involved in terrorism in all parts of 
the U.K., not just in Northern Ireland. They usually, although 
not always, gave a warning prior to their bombs exploding. So 
clearly the bombings of July 7 were unprecedented in terms of 
the type of incident with no warning and being a suicide 
attack. The Underground is an environment where the millions of 
people we convey each day have no full check on their identity. 
No screening of their possessions take place, and there are 
only ticket gates to control movements in and out of the 
system.
    The phenomenon of the suicide bomber means any traditional 
measures of detection and interception are therefore likely to 
be ineffective. Response to the incident is therefore key. 
After the September 11 attacks in the United States of America, 
London Underground played a full part in the resilience 
planning process put in place by the U.K. Government and 
supported by the Mayor of London. We have seconded a senior 
manager to the London resilience team since it was established, 
and this is to ensure that the operational realities of a mass 
transport metro system can be properly considered in political 
and investment decisions.
    This team has led work in areas such as evacuation of parts 
of London, chemical, biological and radiological attacks, and 
most visibly has arranged tabletop and live emergency 
exercises. The largest of these was a weekend exercise at Bank 
London Underground Station which simulated a chemical attack at 
one of the largest, most complex stations on the network. This 
was a multi-agency exercise which was also attended by 
political leaders. It is my view that the learning from all 
exercises played a vital role for Underground senior managers 
in revising training and in their own actions on July 7.
    The resilience team also enabled the joint development of a 
battery-powered track trolley designed to enable emergency 
service personnel to travel down the tunnel to an incident 
train while wearing heavy cumbersome protective suits. Although 
the events of July did not require such protective suits to be 
worn, these trolleys were deployed to help with casualty and 
later with body recovery. Also, emergency personnel have been 
trained to move trains in an emergency with instruction cards 
being available for emergency personnel to enable this movement 
of trains. As well as these larger-scale exercises, London 
Underground arranges every year a smaller-scale live incident 
gained with the full cooperation and involvement of police, 
fire, and ambulance services. This usually involves closing 
down a portion of the network during the weekend where the 
emergency exercise takes place. While these exercises cannot 
obviously involve all members of staff who might benefit from 
such practical training, in my view they do present a very real 
scenario for the senior and middle management team to 
experience and to learn lessons from.
    Let me go on to talk about the events of July 7. The three 
explosions that happened on the Tube network happened almost 
simultaneously at 08:49 and without warning across the 
Underground network. Two of the explosions were on trains in 
the Circle line, both of them in the second car, and one was on 
the much deeper level Piccadilly line on a train which just 
departed King's Cross, St. Pancras Station. The tight, deep-
level tunnel on the Piccadilly line led to a higher number of 
deaths and serious injuries here than elsewhere. The fourth 
explosion on the London bus, as you described, Madam Chairman, 
took place some hour later and also involved a large number of 
casualties. It was very close to the Piccadilly line train 
incident.
    In total, 38 people were murdered on the Underground and 52 
people in total if you include the bus incident. For upwards of 
half-an-hour after the incident, London Underground staff were 
the first responders to the incident before the emergency 
services arrived. Station staff, train drivers, cleaners, and a 
large number of managers recovered the dead and the dying in 
horrific circumstances at all sites. The drivers of all four 
trains--two were involved at Edgware Road--were among the many 
that performed with amazing courage, dedication, and compassion 
for several hours.
    As it became clear the scale and nature of the incidents, 
the entire Underground network system was evacuated. At the 
time of the explosion, just to put it in context, 500 trains 
were in service, 2,500 staff were on duty, and the system was 
evacuated of over 200,000 people in less than 1 hour after the 
call was made to evacuate (apart from one train that was stuck 
behind the incident train at Russell Square). This was 
particularly remarkable as the capacity of the mobile--or as 
you describe it, cell phone network--was unable to cope with 
the volume of calls being made by members of the public. So the 
communication systems in London were at breaking point.
    Within 24 hours, 80 percent of the service of London 
Underground was restored, and this was significant in that it 
gave a real confidence boost to London and Londoners in the 
resilience of their city. In accordance with our contingency 
plan, we put in place a recovery team immediately afterwards, 
and we restored all services within 4 weeks of the incident, 
the last part of the network being the Piccadilly line. Five 
cars remain under police control for forensic examination. 
Immediately after July 7, all staff were put in high visibility 
orange vests across the network, all managers with any 
operational experience were deployed across the network and 
also asked to wear orange vests. Police deployment was 
unprecedented with major patrols at the main central London 
stations, and over the next weeks there would be occasions when 
every station on the tube network had at least two police 
officers deployed throughout the operational day in addition to 
regular station staff.
    Enhanced staff briefings were instigated to ensure that 
train drivers and station staff had rapid access to information 
as it unfolded. This proved to be particularly important on 
July 21 when the three bombs failed to detonate on the Tube, 
but where the system was kept operational as we were able to 
describe to staff what the security situation was in real time. 
Some 17,000 CCTV tapes were removed by the police immediately 
after the events of July 7, and it obviously was vital that 
these tapes were replaced. This we did following our normal 
protocol, but clearly the system was heavily stretched. As you 
again said, Madam Chairman, the evidence was critical in 
capturing aspects of the July 21 attempted attacks.
    It is also important to note that since the July attacks 
the criticality of the radio system, the train radio system, 
has come into question, and what we have done is we have 
increased the spending on our radio system and have ensured 
that the delivery of a new system would be brought forward so 
that all lines would have a new radio system by the end of 
2006. In the meantime, we have adjusted operational procedures 
to ensure that if a radio is inoperative, then we do not run 
trains in passenger service.
    I just want to talk briefly about investment, and I will be 
talking in pounds, so I apologize for that. Overall investment 
on the London Underground over the next 5 years will be 5.5 
billion pounds. This reflects both London Underground directly 
managed investment and capital works delivered under our 
public-private partnership arrangements and public finance 
initiative contractors. At least 70 million pounds of the 
public-private partnership works will be spent on safety and 
security-related improvements over the next 5 years. I have 
already talked about the CCTV enhancement works and the 6.3 
million pounds will be spent on this area. Also, London 
Underground other works will include improved communication 
systems by station and train radios and also allow emergency 
services to use their radio systems underground. The day-to-day 
operational spent for security and British Transport Police 
operation has been enhanced following an increase of 100 
additional police officers. The annual policing cost directly 
funded by London Underground is 50 million pounds, and in 
addition to this London Underground spends an additional 10 
million pounds on other security and policing initiatives.
    It is worth noting that the estimated revenue impact for 
2005-2006 fiscal year of the attacks is of the order of 73 
million pounds. As the network returned to normal, it is 
obvious that there should be a full review of all lessons 
learned from the event. Obviously, this is not yet in its final 
draft, Madam Chairman, but what I would wish to share with you 
is just a couple of things that we have already decided need to 
be looked at. The first one is car design. There has certainly 
been some feedback that the location and construct of the 
internal design of cars may have caused difficulty for some of 
the immediate rescue and recovery operation. Staff training is 
undergoing a full structural review within London Underground, 
and this review has now been extended to include a level of 
practical rescue and recovery training given to existing 
drivers and station staff. Already, all staff on the system 
undergo 5 full days of refresher training every year. The 
content and duration of this is being reviewed. It is also true 
that we are reviewing our resource deployment in the event of 
such incidents and all the issues around multi-site incident 
management.
    Thank you, Madam.
    Chairman Collins. Thank you. Chief Hanson.

 TESTIMONY OF POLLY L. HANSON,\1\ CHIEF, METRO TRANSIT POLICE 
   DEPARTMENT, WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY

    Ms. Hanson. Good morning, Chairman Collins and Members of 
the Committee, and thank you for asking me to testify on the 
Washington Metropolitan Area Transit Authority, or Metro, 
security initiatives. For the record, I am Polly Hanson, the 
chief of the Metro Transit Police. My written statement 
provides general background information on Metro and the 
Transit Police Department, so I will focus my remarks this 
morning on our security-related activities.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Hanson appears in the Appendix on 
page 66.
---------------------------------------------------------------------------
    As the largest transit provider for the National Capital 
Region, Metro does take its responsibility in homeland security 
with the seriousness it demands. WMATA's approach to transit 
security involves a partnership between employees, customers, 
the transit police, and other public safety departments in the 
region, as well as the Federal Government. It is a strategic 
approach that merges the application of technology with 
enhanced operational awareness and puts an emphasis on 
training, public outreach, and the use of security assessments 
that take into consideration the unique features of transit and 
utilizes many of the industry's best practices to implement 
these strategies.
    My written testimony provides a detailed summary of the 
security actions taken by WMATA prior to and after the attacks 
of September 11 in areas such as chemical and intrusion 
detection, perimeter security, explosives detection, our two 
federally sponsored security assessments, and other additional 
target hardening and emergency preparedness measures, so I 
would like to focus the majority of my statement on the more 
recent actions Metro has taken in response to the terrorist 
bombings that occurred in London and in Madrid last year. The 
actions taken in response to these attacks are designed to 
enhance both Metro's and the region's emergency preparedness 
capabilities. Some of the actions taken are the purchase of 
additional explosive ordnance detection equipment, increasing 
the frequency of station patrols by transit police special 
response teams--those are like SWAT teams--who patrol with 
specially trained explosive-detection canines and semi-
automatic long guns. We have purchased additional radiological 
pages for use on patrol. We have created a multi-jurisdictional 
partnership with other law enforcement departments in the area 
to assist with rail and bus sweeps. We have assigned a Metro 
Transit Police captain to represent the whole transit industry 
on the FBI's National Joint Terrorism Task Force, which adds to 
the detective we have had assigned to the FBI Washington Field 
Office, JTTF, since the late 1990s, and additional security 
measures that are not visible and are designed that way.
    Aside from the actions taken by our transit police, Metro 
has constantly engaged our customers through a series of public 
announcements, campaigns, stressing the need to be attentive to 
their surroundings. During September, National Emergency 
Preparedness Month, Metro has been sponsoring numerous outreach 
events for our customers. We hosted an information booth and 
conducted canine and emergency evacuation demonstrations at the 
September 1, 2005, DHS kickoff at Union Station. Our safety 
office has been offering emergency preparedness seminars at the 
offices of large regional employers, as well as conducting open 
houses at major rail stations on Tuesdays and Thursdays. During 
these events, members from the Metro Transit Police, our safety 
and communications departments, are on hand to answer questions 
from customers and distribute emergency preparedness brochures 
to explain emergency evacuation procedures and alternate route 
planning information that can also be found on our web site, 
MetroOpensDoors.com. We are also an active participant in the 
NCR's just-launched emergency preparedness campaign, which has 
this zip card that allows you to document everything you would 
need to know in an emergency, and for the first time 
transportation is a component because of Metro's request that 
it be a focus because it is so important.
    We also think that after Monday night's football game, we 
might ask Joe Gibbs now to do a campaign because we think 
people would be willing to listen to him. [Laughter.]
    The recent events in London prompted a top-to-bottom 
reemphasis on our entire workforce on counterterror and 
emergency response training. Since 2003, Metro bus drivers, 
train operators, and other operational employees have been 
shown the National Transit Institute's Warning Signs video, 
which covers systems security for transit employees, including 
what to look for and what to do regarding suspicious activity, 
packages, and substances. Warning Signs is also shown to all 
non-operational personnel, and we are supplementing our 
existing training for both operations and non-operations 
personnel with NTI's terrorist activity recognition and 
reaction training classes, which focus on suspicious activity 
and behavior, which I think Mr. Ron will talk in great detail 
about.
    We continue to enhance and expand our training partnerships 
with the region's first responders with Metro Transit Police-
sponsored initiatives such as managing Metro emergencies and 
the Metro Citizens Corps, both one-of-a-kind programs, and also 
advanced behavioral assessment training for our regional law-
enforcement partners. WMATA's emergency management teams train 
an estimated 2,000 Federal, State, and local first responders a 
year at our emergency response training facility. All of this 
is covered in greater detail in my written testimony.
    The Department of Homeland Security and Congress have yet 
to make the protection of transit infrastructure a top homeland 
security priority. Less than $250 million of grant funding over 
3 years has been allocated nationwide to transit since the 
creation of DHS in 2003. This amounts to an average of less 
than 0.3 percent of DHS's annual budget of $30 billion, and 
prospects are not looking better for the upcoming year.
    The catastrophic consequences of Hurricane Katrina, 
highlighted by the breaching of the levees in New Orleans, 
serve as a stark reminder of the implications of neglecting to 
take action to protect critical infrastructure. Given the 
modest amount of Federal support for transit security to date, 
DHS could simplify the grant application process in fiscal year 
2006 to ensure that already identified needs based on both 
external and internal security assessments are addressed in an 
expedited manner.
    Due to the amount of planning and the approval requirements 
associated with the fiscal year 2005 transit grant program, 
most of which replicates what transit systems are already 
doing, we are now almost a year after the enactment of the 
fiscal year 2005 DHS appropriations bill and 2 months after the 
London bombings, and we still have not gotten the green light 
from DHS to spend our fiscal year 2005 grant funds. At the very 
least, for fiscal year 2006, DHS should be able to evaluate all 
the risk assessment information submitted by transit agencies 
in the past years and provide specific allocations to each 
transit property based on risk rather than allocating funds on 
a regional basis. As part of our Metro Matters capital 
improvement campaign launched in the fall of 2003, WMATA 
identified $150 million of high priority outstanding security 
needs, yet WMATA has received only a total of $15 million in 
DHS transit security grants over a 3-year period. WMATA has 
allocated most of these funds toward beginning to address the 
need for redundancy and enhanced reliability for key operations 
control and communications functions, which was highlighted as 
a top priority by both our DHS and FTA security assessments.
    Other high priority security needs on the capital side 
include enhancing WMD detection capabilities, expanding 
intrusion detection and surveillance systems, enhancing 
decontamination response and recovery capabilities, and 
additional CCTV capability in rail stations and on buses.
    Transit systems around the country work in partnership with 
the American Public Transportation Association and have played 
a leadership role in developing security-related best practices 
in such areas as intelligence sharing, system safety and 
security guidelines, employee training, emergency preparedness, 
and the prioritization of transit research projects, but the 
energy and ingenuity exhibited by the transit sector since the 
tragedy of September 11 4 years ago must be matched by a 
greater commitment of resources allocated on a risk basis and 
practical planning requirements by DHS in order to enhance the 
security of the more than 32 million customers who ride subways 
and buses every day. DHS could also do a better job of 
coordination and information sharing among internal agencies 
within the Department, such as ODP, TSA, IAIP, and the Science 
and Technology Directorate.
    The transit community also needs DHS's help in the 
development of standards for detection and surveillance 
technologies and other security items applicable for target 
hardening in a transit environment. Metro continues to serve as 
a test bed for the Federal Government and a model for the 
country on new security initiatives. Metro's chemical detection 
system, commonly referred to as PROTECT, has become a model for 
other transit agencies across the Nation and the world. Working 
with our Federal partners at DHS and the Departments of 
Transportation and Energy, WMATA continues to offer training 
and technical assistance on the PROTECT system to anybody 
interested in the transit industry. WMATA is actively engaging 
the Department of Homeland Security in efforts to leverage the 
advances obtained by the PROTECT program to other emerging 
applications in chemical, biological, and explosive detection 
areas.
    In January of this year, the Metro Transit Police and the 
Department of Homeland Security's Transportation Security 
Administration collaborated to enhance security at Metro 
stations and on trains for the Presidential Inauguration. The 
first-of-a-kind partnership with TSA included the use of 
Federal screeners equipped with explosive trace detection gear 
and canine teams supplementing Metro's teams of officers and 
explosive detection canines. They performed without a hitch and 
the ops plan developed can be applied to other special events 
across the country. We were also working with DHS on expanding 
the application and training of personnel in the area of 
behavioral assessment screening of passengers in a transit 
environment.
    Early in 2004, WMATA was one of the first transit systems 
to subject itself to a comprehensive security risk assessment 
offered by the Office for Domestic Preparedness Technical 
Assistance Program. It is a useful tool, quantitative and 
scenario driven in nature and good for evaluating and ranking 
gaps in our infrastructure protection and response 
capabilities, and it represents the only example of a DHS 
agency approaching us with well-thought-out, risk-based 
process, which allows a property to assess outstanding security 
needs. And while the assessment methodology needed some 
tweaking, the ODP assessment team was receptive to our 
suggestions for improving the process and we recommend that 
other DHS agencies with responsibilities for accessing transit 
security such as TSA and the Information Analysis and 
Infrastructure Protection Directorate work with ODP to enhance 
and expand the use of this risk assessment tool.
    WMATA has a long-standing productive relationship with the 
Federal Transit Administration on a wide range of emergency 
preparedness initiatives linked to training and exercises that 
are also summarized in my written testimony. As the recent 
events in the Gulf Coast illustrate, considerable coordination 
and planning among the region's State and local government 
players, as well as the private sector, is necessary in order 
to ensure that WMATA's own emergency preparations and security 
upgrades will provide benefits to the National Capital Region 
during an emergency.
    Using the Metropolitan Washington Council of Governments, 
or COG, as its primary coordinating body, the region has made 
progress with regional emergency response planning and 
coordination. As the lead transit agency in the region, WMATA 
continues to work with the rest of our partners in the 
transportation and public safety community to refine the plans 
in place. My written testimony summarizes other regional 
emergency preparedness activities that WMATA participates in, 
as well as our long-standing relationships with the region's 
other law enforcement departments and emergency management 
agencies.
    We constantly reevaluate our top security needs based on 
new threat information, updated external and internal security 
assessments, and emerging technological innovations, and we are 
going to continue to pursue partnerships with the Department of 
Homeland Security and anybody else we can find to serve as a 
test bed for new initiatives in the areas of biological and 
chemical detection and enhanced security procedure for a 
transit environment. The tragic events in the Gulf region 
reinforce the importance of our need to work with all our 
regional partners to further enhance emergency preparedness in 
the National Capitol Region.
    Thank you, Chairman Collins, and the rest of the Members of 
the Committee for the opportunity to present these remarks and 
for your support of Metro over the years. I am happy to answer 
any questions you may have.
    Chairman Collins. Thank you. Mr. Ron.

TESTIMONY OF RAFI RON,\1\ PRESIDENT, NEW AGE SECURITY SOLUTIONS

    Mr. Ron. As a private professional, I would like to 
especially thank you for inviting me to testify before the 
Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ron appears in the Appendix on 
page 76.
---------------------------------------------------------------------------
    Over the past 50 years or so, it has become clear that 
transportation is a high priority target for terrorists and 
terrorist organizations. Since transportation systems 
constitute a critical infrastructure without which our modern 
industrial society cannot function, these systems are very 
likely to remain at the high-risk end in the foreseeable 
future. Key links in our transportation systems are vulnerable 
to attack, and the potential damage may cause a large number of 
casualties as well as long shutdowns which can lead to major 
system collapse with multiple economic and political 
repercussions.
    No other system combines such a high level of vulnerability 
with so many attractive goals for terrorists acting against the 
United States. As a result of the September 11 attack, aviation 
security has been given a great deal of attention, and the 
achievements are impressive. In less than 4 years, the United 
States of America has set itself as the global leader in 
aviation security and has become the driving force in making 
domestic and global aviation systems safer. Unquestionably, 
American aviation has become a harder target for terrorists to 
hit. For terrorists, this means that in order to ensure the 
success of an attack on aviation, they would have to meet much 
higher requirements than ever before in terms of effort and 
sophistication. Concurrently, the disruption of global 
terrorist organizational structure by the U.S. global war on 
terror is resulting among other things in the shift of 
responsibility for initiating and executing attacks to local 
terrorist cells, as we have seen in the cases of Madrid and the 
London attacks.
    The resources needed to mount successful attacks on hard 
targets are less readily available to terrorists operating on 
the local level. The important lesson to be drawn from this 
recent history of terrorist activity is that once high-priority 
targets are made harder, terrorist efforts tend to be diverted 
toward minor targets that are still perceived as being soft. 
Mass transit remains a vulnerable target, more difficult to 
protect because of its vast extension and accessible nature, 
because attacking it does not require extraordinary resources, 
and because technological solutions have only limited relevance 
to its protection.
    The turning of terrorist attention to urban mass transit 
systems is thus an expected consequence of our success in other 
domains. Implementing the aviation security model in the mass 
transit environment is not an option; 100-percent screening 
cannot be performed with the technology available today without 
creating a bottleneck at checkpoints. However, bottleneck 
checkpoints are not a proper solution because we need to allow 
high throughput without which mass transit cannot fulfill its 
role.
    The challenge facing us is to develop a system approach 
solution that combines technology, human resources, and 
procedures. This system approach solution must be designed to 
address the three stages of the security process: preparedness 
and routine management, incident management and first 
responding, and recovery. The system must have a so-called open 
architecture that will allow the shift of weight from one 
element to the other as more advanced and relevant technology 
becomes available and operational. At present, the most 
relevant available technology is in the video field. 
Traditionally, video systems are installed in the location of 
the expected crime scene. While this is an effective way to 
identify criminals and secure the necessary evidence to convict 
them in court, it is totally inadequate to deal with a 
terrorist attack because in the latter case, as soon as the 
attack takes place, terrorist success has been achieved and the 
damage has been done.
    What we need is a new approach to video application, as 
well as to the overall security planning. Prevention and 
deterrence must be the goal, rather than detention and 
conviction. This distinct goal dictates pushing the security 
measures to the perimeter of the mass transit system. Our focus 
must be on detection and response before the terrorist gains 
access to the target. In other words, we need to shift our 
efforts from the train and the ramp to the station entrances.
    While video technology is undoubtedly important, it does 
not provide us with the most critical information we need, 
explosive detection. At present, explosive detection systems 
are designed to meet the requirements of the aviation industry 
and are not applicable in the mass transit environment. With 
research and development that will recognize this need and is 
focused on operational application, such explosive detection 
systems solutions can be available in the next few years. 
Current ideas are in the area of air sampling techniques, as 
well as trace detection on tickets and body parts that come in 
contact with the system in the entry process.
    Appropriate technology is a critical factor for the 
protection of mass transit systems, but no technology can 
provide a solution without human individuals who can not only 
operate it effectively, but also provide appropriate immediate 
response. It is useless to detect an explosive device if you 
cannot act to stop the person who carries it from entering the 
system. Human resources would thus remain a critical element 
even when we have those future technologies at hand. At the 
present time, while these technologies are still in the works, 
the importance of the human factor is even more critical.
    In Israel, as well as in other parts of the world, the 
presence of trained security personnel at entrances to public 
facilities has proven to be a very effective preventive measure 
against terrorist attacks, including suicide attacks. Despite 
numerous attempts by suicide bombers to enter shopping malls in 
Israel, none has been successful. The terrorists were forced to 
carry out their attack outside the mall. The targets affected 
have been relatively minor, and the damage sustained was 
smaller in terms of human life, as well as property.
    In reference to the human factor, I would like to point out 
that the Achilles heel of the suicide terrorist is his 
behavior. A person intending to commit an extreme act of 
violence, in most cases for the first time in his or her life, 
as well as to terminate his own life, is most likely not to 
behave like the ordinary people around him going about their 
daily routine. An example is Richard Reid, the shoe bomber, who 
was clearly detected by both security and non-security 
personnel as a very suspicious person before and during the 
boarding process to an American Airlines flight in Paris in 
December 2001.
    Behavior pattern recognition techniques implemented by 
trained security and non-security personnel have proven to be a 
valuable measure in the detection and prevention of terrorist 
attacks in public facilities. The training provides the skills 
and the confidence not only to law enforcement officers 
positioned at entry points, but also to employees who are 
present at every point and corner of the system. No one is in a 
better position to recognize irregularities on the ground than 
the people who regularly work there.
    Let me sum up by reiterating three major points: One, 
legacy security programs in mass transit systems must be 
reassessed in the light of the shift from the threat of 
conventional crime to the threat of terrorism, including 
suicidal terrorism. This means putting a higher focus on early 
detection and prevention. Two, there is a pressing need to 
invest in technological R&D that will result in effective early 
detection of explosives and chem/bio material without 
disruption of throughput. Three, security and non-security 
personnel in mass transit should undergo counterterrorist 
training that includes suspicious behavior recognition 
techniques.
    I thank you very much for your attention, and I will be 
happy to answer any questions.
    Chairman Collins. Thank you very much. I want to thank all 
three of you for excellent and very helpful testimony from a 
real variety of perspectives.
    Chief Hanson, I want to begin my questioning with you. You 
did an excellent job of describing the funding inadequacy, as 
well as your frustration in the delays in the release of 
funding, something that Senator Lieberman and I will follow up 
with DHS on. I want to ask you, given your unusual position of 
running the Metro for the capital city for a major region with 
different jurisdictions and handling millions of tourists each 
year, whether you had any input into the national strategy for 
transportation security that the Department has recently put 
together?
    Ms. Hanson. WMATA reviewed the document in February and 
provided comments. I understand the final document is very 
different and we have not seen it.
    Chairman Collins. Do you think that you need to have access 
to this document in order to better understand the roles that 
different jurisdictions will be playing?
    Ms. Hanson. Well, if the document is not shared with the 
stakeholders, I am not sure I understand what the value is 
then.
    Chairman Collins. That is what troubled me as well. The 
fact that the strategy was initially--until we intervened--
issued in a classified form defeats the whole purpose of coming 
up with a strategy that is supposed to be shared with all the 
stakeholders so that people understand what their roles and 
responsibilities are.
    Ms. Hanson. I also wanted to say I think right now, for the 
fiscal year 2005 grant process, there are regional transit 
strategies. So I am not sure what the relationship is between 
the national and the regional strategies, and if there is not 
one, then I do not understand that, either, because it would 
seem to me that there needs to be a relationship or a 
connection between those two strategies, otherwise I am not 
sure why we went through a huge exercise this last grant 
process in developing a regional strategy.
    Chairman Collins. I think that is an excellent point, as 
well, but it troubles me that if the national strategy has not 
been shared with you, as the person responsible for the 
security of the subway system in our Nation's capital, then I 
don't understand who it would be shared with. That strikes me 
as a real gap or lapse.
    Ms. Hanson. And I think most of my colleagues would suggest 
that we have clearances, so that would not have been an 
impediment. You did make reference to the fact that it was 
classified, but at this point most transit properties that have 
dedicated law enforcement personnel have folks in the agency 
that have top-secret.
    Chairman Collins. Mr. Brown, I was very interested in 
hearing you describe in more detail what appeared to have been 
a first-rate response to the bombings in London. You have done 
the training. You had the surveillance cameras. Your response 
was swift, effective, and undoubtedly saved lives. What is your 
reaction to Mr. Ron's suggestion that we need to put more 
resources in at the front end to try to detect and deter 
someone who is committed to suicide bombing?
    Mr. Brown. Well, I would certainly accept that. I think it 
is a very valid point. I think part of our approach in terms of 
the major investment in even more closed-circuit television 
coverage across the network, as I said, doubling the number of 
cameras, is just designed to do that. Also, I think there is a 
need to ensure that all staff--we are compared to many other 
metro systems--we have a huge number of front-line operational 
staff visible on our stations. Every one of our stations has 
staff deployed on them every time that station is open 
operationally. None of our stations open with no staff on them, 
and I think we have a responsibility to review how we train 
those staff to be alert to strange behavior, to people doing 
different things.
    Our staff are pretty sharp. If they work in a station all 
the time, they know the difference between a lost tourist 
behaving in a bit of a strange way, looking where to get to 
Buckingham Palace or something, as opposed to someone who is 
behaving in a different type of suspicious way, maybe about to 
perpetrate a terrorist act. So I think absolutely we need to 
ensure that we do not just rely on police activity or 
technology, but we also rely on the human factor in terms of 
our detection capability.
    Chairman Collins. I think that is an excellent point, as 
well.
    Mr. Ron, what has been the reaction of the public transit 
agencies that you have approached with your ideas for improving 
security at the front end, aiming at prevention, detection, and 
deterrence?
    Mr. Ron. As Chief Hanson mentioned earlier, the Metro 
system here in Washington, DC, has adopted this approach and is 
conducting training programs along the lines that we laid down 
in Boston earlier for the airport environment, and I should 
compliment the chief for that. We have not seen a lot of that 
happening in other parts of the country yet, but we do hear 
about other metro systems around the country that are showing 
interest in this approach and are looking at the programs to be 
implemented.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks again, Madam Chairman.
    You have been an excellent panel, very helpful. Thank you.
    Chief Hanson, I was really troubled to hear your testimony 
that you have not gotten the green light to spend the transit 
money that you did get from the Federal Government for fiscal 
year 2005. I don't know--Mr. Hawley, you were good enough to 
stay in the room--do you have a response to that? Just come up 
to the mike. Do you know what is going on? Is that a typical 
situation?
    Mr. Hawley. I do, and I would like to talk to the chief 
privately about that.
    Senator Lieberman. OK. I hope the green light can go on 
soon because obviously you have significant needs.
    I wanted to ask you first a question that, in some sense, 
the testimony each of you have given has answered, but I want 
to ask it anyway because I have continued to worry, as we have 
heard testimony from our own DHS leaders on this, to some 
extent from Mr. Hawley today, although I think he was more 
reassuring, that there is a concern that because mass transit 
systems are more open than aviation, that it is very hard to 
defend them, so let's not raise expectations too high, because 
I think that ends up creating a pessimism that also encourages 
less defense than we should have. And I understand the 
difference, obviously, between getting on a metro and a train, 
and getting on a plane, but I presume you agree that there are 
a lot of things nonetheless that we can do. I mean, it is great 
to say that better intelligence will stop a suicide bomber 
before he or she gets to the Metro or the Underground or the 
bus station, but some of them are going to get through and then 
we have to figure out how to stop them as they get closer. So 
am I correct in what I have heard? Do you agree that we have to 
approach this with a can-do, must-do attitude about mass 
transit security?
    Mr. Brown. Absolutely, Senator. My view is--and I just go 
back to the comment I made--that if you think about the lost 
revenue that we have had as a network of 73 million pounds for 
this fiscal year--that in itself actually should be part of the 
investment decisionmaking process. This makes commercial sense, 
never mind all the human factor sense that it makes. I think 
things like the portable detection device, limited use of some 
screening of people coming into stations, is certainly 
something we are exploring on a targeted basis.
    Senator Lieberman. There would be a random screening or a 
screening after some kind of behavioral identification?
    Mr. Brown. Well, it could be either, and also it could be 
based on specific intelligence, because there's no doubt there 
is intelligence in the background in all of this, and therefore 
it is minimizing your risk on these things. I think also, to 
the point that was made earlier on in terms of the amount of 
approaches that you get from all sorts of people who are 
selling you bits of kit that are going to solve all your 
problems, I have to say I think 99 percent of those that I get 
go straight in the trash can because really most of them are 
not worth the paper they are written on. So I think we have to, 
as an industry, work very hard to ensure that we have 
confidence, globally have confidence, to ensure that we are 
deploying the right technology, that we are using the right 
expertise, to ensure that we do target our resources 
effectively, but certainly not targeting any resources cannot 
be the right answer.
    Senator Lieberman. Right. Chief Hanson, I was impressed by 
your description of some of the things the Metro system here is 
doing, and obviously--are you working at all with random 
searches? I know in Connecticut on the trains, when the orange 
alert went in after the London bombing, that there was some 
random searching of people done. Have you experimented with 
that?
    Ms. Hanson. We are analyzing that. We are putting together 
a package that I am actually going to present to both the CEO 
and the Board of Directors for Metro to discuss ideas that we 
have. I support Mr. Ron's ideas--and WMATA has taken advantage 
of the training that is based on his philosophy and teachings. 
I have been very fortunate in this region to be able to access 
Urban Area Security Initiative money. I am the exception, not 
the rule. Many of my counterparts in the country do not have as 
much success accessing the regional money as I have. We have 
paid for some of that training with that money, and I have 
received money for the orange alert overtime. But as Mr. Brown 
mentioned, he has 8,000 operational employees. We have the 
same. It is very expensive to train operational employees, and 
I am not talking about the cops. There is reimbursement money 
for them. With your operational employees, you cannot take a 
bus driver off the bus and not replace him or her. If some of 
the training that is available through use of Urban Area 
Security Initiative money was there to support the training of 
operational employees, then that would be a more effective way 
of promoting prevention activities because then you are 
drilling down and using all your employees to be effective in 
the prevention or identification of suspicious activity.
    Senator Lieberman. Well said.
    Mr. Ron, am I right that--I believe you talked about this, 
or at least in your written testimony--that in Israel the 
operational personnel, bus drivers, for instance, are trained 
in some of these detection techniques?
    Mr. Ron. Yes, they are, and that actually comes into effect 
by more than one--the suicidal attack that was completely and 
successfully prevented on the field by bus drivers that 
identified the terrorist as he was boarding the bus----
    Senator Lieberman. Right.
    Mr. Ron [continuing]. And responded immediately and 
correctly by either closing the door on the terrorist and not 
allowing him to board the bus or by even pushing him out of the 
bus if he was already on the bus, and we have more than a few 
cases where these tend to save a lot of lives and was very 
successful.
    Senator Lieberman. I was struck by one thing you said, very 
sensible, it seems to me, that it's a different way to go at 
the disproportionate allocation of funding to aviation security 
here, which we all support, but one of the effects of that is 
that it makes mass transit more of a target because it is 
softer, it is more vulnerable. On my time, which is running 
out, I want to ask you just to talk a little bit more about--
you mentioned how security personnel are stationed now at the 
entrance points to major bus stations to deter terrorists from 
coming there so if they're going to strike they will go to a 
bus stop where there are fewer people, same with the malls. I 
was fascinated by that. I assume you mean that they are trained 
in this behavioral pattern recognition that you have talked 
about. Just take a moment to tell us what does that involve 
and, in a very American context where there is always a debate 
about profiling, does it include profiling as part of that?
    Mr. Ron. Well, I will start from the last point since I 
recognize the sensitivity of the issue of profiling, and I 
would like to emphasize that the program that we are advocating 
is not a racial profiling program, and I would like to make 
that very clear. This is behavioral conduct that has nothing to 
do with any racial or ethnic aspects, and I would even like to 
emphasize the point that our experience in Israel has taught 
us, especially at Ben Gurion Airport in Tel Aviv, that 
terrorists do not come in the shape and color that everybody 
expects them to be. The two worst attacks on Tel Aviv Ben 
Gurion Airport, one was carried out by a group of Japanese 
terrorists and the other one was carried out by a German 
terrorist. Another attempt to take a bomb to an El-Al flight 
from London was carried out unknowingly by an Irish young 
pregnant girl. So this is very much as far as one can get from 
the racial profile of what we all expect to be a terrorist, and 
I strongly suggest to avoid racial profiling, also on 
professional background, not only on moral and legal 
background.
    Now, as far as the training that takes place in Israel to 
employees and the issue of positioning them at entrances to 
public facilities, training defers from one agency or one 
entity that carries out the security work to another, but the 
common denominator is the idea to detect a potential terrorist 
or to detect suspicious individuals before they manage to enter 
the premises or the facility that is being protected. In 
Israel, by law, every public facility, including coffee shops 
and restaurants, must have a guard at the door, not to mention 
the major bus stations and train stations, and this is carried 
out by the facilities. It is paid by the businesses. They 
protect themselves, and they are using private security 
companies. The level of training of the private security 
companies is not regulated in Israel, but there is common 
knowledge that is shared among the people in the industry, and 
this has proven to be very useful.
    As far as the government agencies that are in charge of 
protecting public facilities, including the railway system or 
the railway main terminals, the airport main terminals and 
etc., these are being trained in the same philosophy that I 
mentioned earlier, and this has proven to be very successful.
    Senator Lieberman. Well, thank all of you, the three of 
you, for what you are doing and for what you have helped to 
teach us about what more we can do here in the United States to 
protect riders on mass transit.
    Chairman Collins. Thank you. Senator Lautenberg.
    Senator Lautenberg. Thank you again, Madam Chairman, for 
conducting this hearing and for being able to identify the 
excellent witnesses that we have had here today, different 
perspectives, but all focused on the same problem. I would have 
to say that the traditional perspective that the police chief 
is this tough, burly guy who has large muscles certainly does 
not seem to apply, and I feel very comfortable, however, and 
very safe with this very excellent presentation by this 
relatively, almost--I will not say harmless looking--but not 
menacing at all, and it is nice to see that.
    Ms. Hanson. You are too kind.
    Senator Lautenberg. It is nice to see you and to hear what 
you have to say about the system, and you raise some very 
serious questions for me. And you say, at least in your 
testimony, for fiscal year 2006, DHS should be able to evaluate 
all the risk assessment information submitted by transit 
agencies in the past year and provide specific allocation to 
each transit system based primarily on risk rather than 
allocating funds on a regional basis. And Senator Lieberman 
took the liberty of referring a question to Mr. Hawley, because 
as I heard your remarks, Mr. Hawley, I thought that you were 
kind of accepting the fact that these funds have to be given 
out regionally and it is left to others to decide precisely how 
the distribution is going to be made.
    Now, in each case here, you have a different perspective on 
the transit systems. Israel, for instance, does not have, or 
maybe they have had and you never know quite what is on the 
agenda in Israel at any given time, but very little rail system 
use for commutation. I think that helps, doesn't it, have a 
better control factor about who is coming and who is going? We 
have heard a lot about the heroic actions by bus drivers, by 
people who traditionally have a very limited responsibility, 
but reacting to danger and the reaction saving lots of lives 
and encouraging people that they can still use the system and 
believe that they are being protected. We had a woman from New 
Jersey killed some years ago on a bus, and I happened to have 
been traveling in Israel at the same time, and it was amazing--
and I will venture to a side perspective. I was sitting, with 
several Senators, with Prime Minister Sharon, and all of a 
sudden, in the middle of the meeting--Senator Rockefeller was 
there, Senator Levin, Senator Reid--we were on our way to Iraq 
and notes were being passed to the Prime Minister, and he 
looked crestfallen all of a sudden. And he said, ``We have just 
learned that there was an attack at Ashdod by a couple of 
suicide bombers, and they took a number of lives.'' And I 
volunteered, and I said, ``Mr. Prime Minister, you don't have 
to continue this meeting. This is not urgent. This is 
informational, and we understand you have got other things to 
take care of.'' And he said to me, ``Senator, a Prime Minister 
in Israel knows only one thing, that whatever happens, he must 
carry on, and we are going to carry on this meeting.'' I was 
struck by that, by that commitment. We all have the same 
commitment, expressed differently.
    Mr. Brown, the reaction of your people in London--I do not 
know whether you had seen the film--it was called ``A Dirty 
Bomb''--that was run some weeks before that, using London as an 
example, and I do not know whether that induced that violent 
behavior or what, but your performance was far better than that 
movie indicated. So I did not mean to use my time making a 
speech, but I wanted to ask how much help, for instance, does 
WMATA get from city police, from Capitol Police, in terms of 
your security?
    Mr. Brown, how much help do you get from London City Police 
or national police? Is that a significant part of your security 
network?
    Mr. Brown. If Chief Hanson allows me to go first, yes, 
certainly in London the British Transport Police is responsible 
for policing the public transport network, but in times like 
July 7, the boundaries kind of disappear. So the Metropolitan 
Police actually were the ones that led the investigation. The 
Metropolitan Police across the whole of the United Kingdom has 
a particular role in antiterrorist activity and terrorism 
investigation, and therefore they took----
    Senator Lautenberg. That was after--and I think, Mr. Ron, 
you made a point about having the intelligence.
    Mr. Ron. Yes.
    Senator Lautenberg. The capacity to interrupt was something 
else.
    Mr. Ron. Yes, absolutely. So there was a huge engagement of 
lots of policing, and, in fact, we had police officers down 
from Scotland and from all parts of the U.K. in London 
immediately after the events. So it was a national response to 
an attack on our nation's capital.
    Ms. Hanson. Sir, we have also regional partners, and I 
would have to say you mentioned your own Chief Gainer, as well 
as Chief Ramsey, and part of the partnership initiative I 
discussed is something that we created right after the London 
bombings that we are sustaining--and it is police officers from 
jurisdictions throughout this area--Fairfax County's 
helicopter, as well as bicycle cops from Montgomery County, or 
transit cops with Capitol Police officers, as well as MPD, do 
sweeps together of stations and buses. In fact, we also brought 
in commanders from the regional police departments to this 
initiative, and brought in our regional partners from VRE, 
MARC, and Amtrak to explain where our vulnerabilities and risks 
were so that folks in the region knew and created a document 
for regular police officers so they would be attentive to our 
critical infrastructure. And Mr. Ron's training that he 
created, we actually shared with our regional partners that are 
a part of this sweep team, because we do want to share with 
anybody we can the vulnerabilities, the special features of 
transit, and the things that, if you are not a transit cop or a 
transit employee, you might not be attentive to.
    Our Managing Metro Emergencies was created to bring our 
regional law enforcement partners, fire department first 
responders, as well as other emergency managers together in a 
classroom setting to go over transit-specific incidents so that 
it would allow first responders who have to come to an incident 
to be well-versed and trained in the intricacies of transit so 
that we have a better, stronger first response in this region. 
So partnerships are not a problem for us, sir.
    Senator Lautenberg. I will conclude with--because I am 
frankly stuck on the fact that we all talk about how dangerous, 
how devastating an attack on a transit system could be, and we 
should be working so hard to prevent it. Again, I think, well, 
London, Madrid, Japan--I mean, we have seen it in all those 
places--creates--as you said, Mr. Brown, it is the economic 
consequences, though it is secondary to the human consequence--
the fact of the matter is that it affects people's lives in 
adverse ways all over the area or the country. So when I look 
at Chief Hanson and your commentary, you say WMATA identified--
as part of the Metro Matters capital improvement campaign 
launched in the fall of 2003, WMATA identified $150 million of 
high priority outstanding security needs, yet WMATA received 
only a total of $15 million in DHS grants and securities. Now, 
are you still lacking the kind of support that you think ought 
to be coming? And we recognize there is all kinds of 
competition, but what do you have to have to protect the people 
that use your system? It is a very efficient system. It is a 
very pleasant system to ride, and it has attracted a huge 
ridership as a consequence of that, and security seems to be a 
given there.
    Ms. Hanson. On the issue of the people we are 
transporting--it's worth noting that Metro was essentially 
created to support the Federal Government, and almost 50 
percent of our riders come here to the core of the city and are 
Federal Government employees. We only have to look at the 
example of Hurricane Isabel. Metro, because of information we 
received, chose to shut down because we thought the winds 
sustained would be too much to run the rail and bus system 
safely. And when we shut down, this region shut down because 
folks had no other way to get to work. The effect on the 
economy and commerce in this region would be tremendous if 
Metro could not run.
    There is some operational flexibility that the London 
Underground has, as well as New York, because they are older 
systems, that WMATA does not have. We have a two-lane highway, 
one going one way, one going the other. We do not have another 
lane, and you know what happens on I-95 or even out here on 
Independence Avenue if you have something stuck in the roadway. 
So we are very vulnerable if we had something happen to our 
system. While we would run to the extent that we could, our 
ability would be really limited, and many of the things that 
are in our improvement plan, Metro Matters, have to do with 
capacity, have to do with our need to be able to carry not just 
the passengers we are challenged to carry now, but additional 
folks we might have to evacuate, and to improve our 
communication train control systems, which I think you had Mr. 
Brown saying were very important. So it is very important. We 
do need the support. We continue to use the funds that we get 
to go down the list of priorities as established by our risk 
assessment done by ODP, which is part of DHS.
    Senator Lautenberg. Senator Collins and Senator Lieberman, 
we have had lots of discussions around these areas of how 
grants should be made, and when we hear it from such an 
authoritative, experienced voice and we see the result of a 
good performance--and we admire what you have done, Mr. Brown, 
and you, Mr. Ron, and I am glad that Mr. Hawley was locked into 
his chair and could not leave the room--is Mr. Hawley here--
because we are going to be back again and again and again.
    Thank you very much.
    Chairman Collins. Thank you.
    Mr. Hawley, I do want to commend you for staying to listen 
to this panel. I know that you, as well as the Members of this 
Committee, have learned a great deal from their testimony, and 
we will look forward to having additional conversations with 
you.
    I very much appreciate the participation of all of our 
witnesses today. This is an extraordinarily important issue, 
and it should not take yet another attack on a mass transit 
system, whether here in the United States or somewhere else in 
the world, for us to focus on improving mass transit security. 
My hope is that this hearing, which was recommended by Senator 
Lieberman, will help to focus the attention of policy makers 
and make this a priority, as all of you have urged.
    I want to yield to Senator Lieberman for any closing 
remarks, but I very much appreciate your testimony.
    Senator Lieberman. Thanks, Madam Chairman, a personal thank 
you for your focus on this problem. Even in the midst of all 
our work in responding to Hurricane Katrina, we cannot take our 
eye off of this because the terrorists are not--and I think 
this has been a very constructive hearing.
    Just to pick up from what you said a moment ago, there is 
always a danger--and I know when you are in an open society, as 
we are, and the two other countries represented here are, there 
are a lot of soft targets. You cannot protect everything, but 
there is a way in which we have got to, as I think we are all 
trying to do, get ahead of the terrorists. In other words, we 
cannot be always responding to the last attack and fortifying 
that previous target. We have to get on thinking--the 9/11 
Commission, in its extraordinarily impressive report, said 
that, memorably, one of the great deficiencies here in the 
United States in terms of preventing such an attack was a 
failure of imagination, and what did they mean? They meant our 
inability to imagine that people would actually do what was 
done to us on September 11, and now, shame on us if we are not 
actively trying to put ourselves into the brains of these evil 
forces that hate us, to think what is next so that we can get 
ahead of them to stop it.
    I think the three of you have contributed both to the 
defense of the people you have the responsibility to protect, 
but have also helped us greatly. And I also thank Mr. Hawley 
for staying here, and I hope that it has been as valuable for 
him to hear your testimony as it has been for our Committee.
    Thank you very much.
    Chairman Collins. Thank you. The hearing record will remain 
open for 15 days for the submission of additional materials. I 
want to thank our staff for their hard work, as well, and this 
hearing is now adjourned.
    [Whereupon, at 12.15 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 <all>

</pre></body></html>
